TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Increased Oversight of Information
                     Technology Hardware Maintenance
                   Contracts Is Necessary to Ensure Against
                       Paying for Unnecessary Services



                                      September 24, 2013

                              Reference Number: 2013-22-094




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                               HIGHLIGHTS


INCREASED OVERSIGHT OF                             when necessary to update an existing contract.
INFORMATION TECHNOLOGY                             As a result of the lack of coordination and
HARDWARE MAINTENANCE                               oversight, the IRS paid for services it did not
CONTRACTS IS NECESSARY TO                          receive or need.
ENSURE AGAINST PAYING FOR                          Further, TIGTA found incomplete or inaccurate
UNNECESSARY SERVICES                               asset data in three of the seven information
                                                   technology hardware maintenance contracts
                                                   reviewed. A current TIGTA review provided the
Highlights                                         IRS with several recommendations for improving
                                                   internal controls and overall reliability of the
Final Report issued on                             data.
September 24, 2013                                 WHAT TIGTA RECOMMENDED
Highlights of Reference Number: 2013-22-094        TIGTA recommended that the Chief Technology
to the Internal Revenue Service Chief              Officer ensure that Contracting Officer’s
Technology Officer.                                Representatives provide Contracting Officers
                                                   notification to timely process a contract
IMPACT ON TAXPAYERS                                modification when information technology assets
Coordination among acquisition team members        are retired or removed from service or changes
is a key to ensuring that the contractor is        to performance requirements are made.
meeting the Government’s interest in terms of      Additionally, Contracting Officer’s
providing deliverables that are of high quality,   Representatives should make any necessary
complete, timely, and cost effective. However,     adjustments with respect to receipt and
the IRS’s administration of selected information   acceptance. In addition, the Chief Technology
technology hardware maintenance contracts          Officer should ensure that Contracting Officer’s
could be enhanced. The IRS cannot ensure that      Representatives work closely with Technical
taxpayer dollars are not being misspent to         Points of Contact to periodically reconcile assets
service information technology hardware assets     associated with hardware maintenance
that are no longer in use.                         contracts and provide necessary updates to
                                                   User and Network Services Asset Management
WHY TIGTA DID THE AUDIT                            personnel.
This audit is included in TIGTA’s Fiscal           In its response to the report, the IRS agreed with
Year 2013 Annual Audit Plan and addresses the      TIGTA’s recommendations. The IRS plans to
major management challenge of Achieving            communicate and emphasize expectations with
Program Efficiencies and Costs Savings. The        Information Technology organizations so that
overall objective was to determine whether the     managers can take appropriate action to ensure
IRS has adequate controls over its hardware        that hardware maintenance contracts are
maintenance contracts and is actively mitigating   administered, acquisition duties are performed,
contract fraud risks.                              and acquisition staff effectively coordinate in
                                                   reconciling and providing updates about assets
WHAT TIGTA FOUND                                   associated with hardware maintenance
TIGTA found several weaknesses in the              contracts, all in accordance with existing IRS
oversight of selected information technology       policy.
hardware maintenance contracts. Specifically,
TIGTA found instances where contracting
personnel were not always effectively monitoring
the contracts. TIGTA also found an instance
where the IRS did not receive contract
deliverables in accordance with the contract’s
requirements or submit written modifications
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 24, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Increased Oversight of Information Technology
                             Hardware Maintenance Contracts Is Necessary to Ensure Against
                             Paying for Unnecessary Services (Audit # 201220224)

 This report presents the results of our review of Information Technology Hardware Maintenance
 Contracts. The overall objective of this review was to determine whether the Internal Revenue
 Service has adequate controls over its hardware maintenance contracts and is actively mitigating
 contract fraud risk. This review addresses the major management challenge of Achieving
 Program Efficiencies and Costs Savings and is included in TIGTA’s Fiscal Year 2013 Annual
 Audit Plan.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Alan R. Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services).
                           Increased Oversight of Information Technology Hardware
                            Maintenance Contracts Is Necessary to Ensure Against
                                      Paying for Unnecessary Services




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Some Deficiencies Were Identified in the
          Administration of Selected Information
          Technology Hardware Maintenance Contracts. ............................................ Page 4
                    Recommendations 1 and 2: ................................................ Page 6

          Asset Data for Selected Maintenance
          Contracts Were Inaccurate and Incomplete. ................................................. Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 8
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Glossary of Terms ................................................................ Page 12
          Appendix V – Management’s Response to the Draft Report ....................... Page 13
        Increased Oversight of Information Technology Hardware
         Maintenance Contracts Is Necessary to Ensure Against
                   Paying for Unnecessary Services




                    Abbreviations

CO            Contracting Officer
COR           Contracting Officer’s Representative
IRS           Internal Revenue Service
IT            Information Technology
TIGTA         Treasury Inspector General for Tax Administration
TPOC          Technical Point of Contact
                    Increased Oversight of Information Technology Hardware
                     Maintenance Contracts Is Necessary to Ensure Against
                               Paying for Unnecessary Services




                                      Background

The Internal Revenue Service (IRS) Information Technology (IT) organization delivers
information technology services and solutions that drive effective tax administration to ensure
public confidence. Its goals include improving service, delivering modernization, increasing
value, and assuring the security and resilience of IRS information systems and data. The IRS IT
organization consists of nine different functional areas, e.g., User and Network Services,
Cybersecurity, and Applications Development and works closely with each operating division
and functional area to deliver quality, world-class information technology support, services, and
solutions.
As part of its annual budget, the IRS includes funding for infrastructure costs, such as hardware
maintenance. The IRS spent about $39.8 million on hardware maintenance during Fiscal
Year 2009. The amount increased to $44.9 million in Fiscal Year 2010 and remained relatively
steady at $44.1 million in Fiscal Year 2011. In Fiscal Year 2012, the IRS spent $47.8 million on
hardware maintenance.
There are generally two scenarios that occur within the IRS when purchasing maintenance for its
information technology hardware assets. First, when most hardware assets, e.g., laptops,
desktops, and servers are purchased, those assets come with a manufacturer’s warranty to cover
replacement and repairs. In this scenario, the IRS will usually wait until the warranty coverage
nears expiration before it purchases maintenance if needed for those assets. Second, when the
IRS purchases information technology hardware assets that support critical infrastructure
projects, e.g., loggers to monitor Internet and e-mail traffic, it will often immediately purchase
upgraded maintenance coverage to ensure that the asset can be promptly serviced or replaced
without causing a significant disruption to ongoing operations.
Management of the IRS information technology environment is organized into four tier levels:
Tier 1 (supercomputers and mainframes), Tier 2 (minicomputers), Tier 3 (microcomputers), and
Tier 4 (data and voice telecommunications). Before a requisition for hardware services,
i.e., maintenance, is forwarded to the Office of Procurement for processing, it will undergo
various levels of management and technical review within the IT organization. First, it
undergoes review by one of the four tier levels depending on the type of good/service being
acquired. For example, if the IRS needs to purchase hardware maintenance for laptops or
desktops, the requisition would need approval by Tier III (microcomputers). After tier review,
the requisition is routed to the User and Network Services organization’s Asset Management
group to research and ensure that the assets associated with the requisition are tracked in the
inventory system. According to personnel from the User and Network Services organization,
contract information, e.g., contract number, coverage dates, and applicable vendor information is
added to the inventory system’s Vendor Contract Module to help with associating information

                                                                                           Page 1
                    Increased Oversight of Information Technology Hardware
                     Maintenance Contracts Is Necessary to Ensure Against
                               Paying for Unnecessary Services



technology hardware assets with their maintenance contract. The process to create the linkage
and validate the information is manual and requires that the Asset Management team be provided
identifying data for the impacted information technology hardware assets.
When the IRS awards a contract, the acquisition team is responsible for the various aspects of the
contract administration. This team consists of a Contracting Officer (CO), Contracting Officer’s
Representative (COR), and Technical Point of Contact (TPOC). The responsibilities of the
acquisition team are as follows:
      Contracting Officer – has the authority to enter into, administer, and/or terminate
       contracts. COs are responsible for ensuring performance of all necessary actions for
       effective contracting, for ensuring compliance with the terms of the contract, and for
       safeguarding the interests of the Government in its contractual relationships. The CO is
       the only person authorized to issue a contract modification or task order change.
      Contracting Officer’s Representative – designated by the CO to perform certain
       administrative tasks related to a specific contract. The primary role of the COR is to
       monitor the contractor’s performance, ensure that the contractor delivers what is called
       for in the contract, and serve as the technical liaison between the contractor and the CO.
       Most CORs are not co-located with the TPOCs at the various sites and do not work
       directly with the assets or contractors. Therefore, the COR relies on the TPOC for the
       assurance of delivered goods or rendered services.
      Technical Point of Contact – responsible for providing technical assistance, input and
       direction to the CO and COR throughout the life cycle of the contract. Regarding
       information technology hardware maintenance contracts, the TPOC facilitates the process
       of confirming contractor services were performed prior to notifying the COR to pay the
       invoice. The TPOC also ensures that asset records are accurate.
The IRS IT organization’s Vendor and Contract Management office was created to help
maximize the value of information technology investments by implementing effective sourcing
strategies, monitoring vendor performance and contract management, and facilitating strong
acquisition governance processes. This office consists of a director and 13 staff divided among
three different groups. The Program Management group specifically has responsibility for
conducting research and analyses on the information technology contract portfolio and
evaluating contract management processes to identify opportunities for cost savings. Due to
limited staffing, the Vendor and Contract Management office reviews all requisitions where the
contract will total $5 million or more.
This review was performed at the offices of the IRS IT organization’s Cybersecurity, Enterprise
Operations, and Strategy and Planning organizations located in Lanham, Maryland, and the
Agency-Wide Shared Service’s Office of Procurement located in Oxon Hill, Maryland, during
the period of April 2012 through May 2013. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
                                                                                            Page 2
                    Increased Oversight of Information Technology Hardware
                     Maintenance Contracts Is Necessary to Ensure Against
                               Paying for Unnecessary Services



and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                        Increased Oversight of Information Technology Hardware
                         Maintenance Contracts Is Necessary to Ensure Against
                                   Paying for Unnecessary Services




                                       Results of Review

Some Deficiencies Were Identified in the Administration of Selected
Information Technology Hardware Maintenance Contracts
Our review identified several weaknesses in the oversight of selected information technology
hardware maintenance contracts. We judgmentally selected seven maintenance contracts for
review,1 interviewed members from the acquisition team for each contract to determine their
roles and responsibilities, and reviewed the contract file documentation. During our review, we
found instances where contracting personnel were not always effectively monitoring contracts
and issuing a contract modification when necessary. For example, in one of the contracts
reviewed, we identified 10 assets that were retired (June 2012) prior to the end of the contract
period (January 2013). This contract provided maintenance for the 64 hardware components,
e.g., switches, located in the Development, Integration and Test Environment.2 The contract,
totaling $80,310, was awarded in January 2012 and expired January 2013. In the contract
documents reviewed, we did not find any evidence where a modification was submitted to
remove these assets from the contract. However, the IRS was still being billed the same monthly
maintenance amount ($6,692) even though the 10 assets had been retired. The TPOC for this
contract advised that the usual process is to review and reconcile the assets associated with the
contract prior to the contract’s annual renewal.
In another contract we reviewed, we identified an outdated information technology asset list that
was being used to manage the contract and pay the vendor. This particular contract provided
maintenance for storage devices that required coverage since the original manufacturer’s
warranty coverage elapsed. When the contract was originally awarded in December 2009, it
covered 54 storage devices with an average annual hardware maintenance cost of about
$2.5 million.3 The current list, dated April 1, 2013, showed 32 storage devices requiring
maintenance. The decrease in the number of storage devices is due to the retirement of those
hardware assets or the migration to a separate storage contract as part of IRS’s efforts to
consolidate and share storage across the IRS.
The current TPOC for the storage contract we reviewed was assigned in November 2012. Since
then, the TPOC worked closely with the vendor to reconcile and correct the old asset inventory
list and provided that to the COR. Even after doing the reconciliation, another incorrect list,
representing the storage devices that should receive coverage during the final period of this

1
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
2
  See Appendix IV for a glossary of terms.
3
  The contract included six-month option/renewal periods to provide flexibility to reduce the contract.
                                                                                                              Page 4
                    Increased Oversight of Information Technology Hardware
                     Maintenance Contracts Is Necessary to Ensure Against
                               Paying for Unnecessary Services



contract, was presented to the TPOC to assist with performing receipt and acceptance. It is not
clear from the documentation provided how this occurred. It may have been caused by a lack of
oversight and coordination among responsible parties.
Further, this same contract stipulated 34 different performance standards along with associated
deliverables, i.e., the documents used to monitor the standards. The performance standards
included tasks such as providing 24/7 availability to communicate with the IRS on critical errors,
keeping the system in working order, and delivering an inventory. When we inquired about the
performance standard that requires the contractor to provide a list of assets, the acquisition team
stated it had not received this report since being assigned oversight responsibilities for this
contract and that very few of the electronic documents associated with this contract were
provided to them by the prior acquisition team. The current TPOC also advised that these
reports are no longer necessary since the IRS can input its maintenance requests directly into the
vendor’s helpdesk system for tracking/monitoring purposes. If the acquisition team deems that
several of the performance standards no longer apply, then it should proceed with submitting a
modification to remove these requirements and negotiate a new contract cost from the vendor.
The COR has responsibility for the day-to-day oversight of the contract and the responsibilities
are documented in a letter of appointment. The responsibilities include:
      Assuring that changes in work or services are included in the contract through a written
       modification issued by the CO.
      Monitoring the contractor’s performance of the contract’s technical requirements to
       assure that performance is strictly within the scope of the contract.
Further, Federal Acquisition Regulation sections 52.243-1 – 52.243-7 authorize the CO to make
changes within the general scope of a contract when changes cause an increase or decrease in the
cost or when property is obsolete or excessed. These changes must be done through a written
contract modification issued by the CO. In addition, the Federal Acquisition Regulation requires
a contract modification to be executed before a work scope change is implemented, if
practicable. These actions can only be taken if there is ongoing coordination between the TPOC
and COR regarding changes to the information technology hardware assets, i.e., asset retirement.
This ongoing communication assists the COR with fulfilling his/her responsibility to notify the
CO to modify the contract.
As a result of this lack of proper coordination and oversight, the IRS paid for services it did not
need or did not receive. The IRS also did not receive contract deliverables in accordance with
the contract’s requirements or submit written modifications when necessary to update an existing
contract. These scenarios could potentially cause the IRS to unnecessarily pay for maintenance
on assets that have been retired and no longer need this service. When contracts are not properly
administered, the IRS may not receive the desired outcome or the best return on its investment.



                                                                                            Page 5
                      Increased Oversight of Information Technology Hardware
                       Maintenance Contracts Is Necessary to Ensure Against
                                 Paying for Unnecessary Services



The Treasury Inspector General for Tax Administration (TIGTA) previously reported similar
deficiencies in its review of another contract.4
We did not identify any potential fraudulent activity among the contracts reviewed. We
conducted interviews of the contracting personnel to ensure that procedures were in place to
mitigate fraud risk. Many individuals interviewed confirmed they would contact their managers,
the CO, or the TIGTA’s Office of Investigation if they suspected any fraudulent activity.
Further, an internal website used by contracting personnel provides information on where to
report suspected fraudulent activity. We also performed tests to determine if any of the selected
vendors were involved in any legal proceedings.
Management Action: IRS management agreed that there was a gap in the understanding and
management of the storage contract selected in our review due to COR attrition. The IRS has
taken steps to mitigate these issues over the last two months. The CO has been made aware of
the TPOC’s work to reconcile the hardware list with the vendor and will be contacting the
vendor for the required documentation supporting a reduction in costs. The COR is also
reviewing the current performance standards to identify non-applicable performance standards to
be removed.

Recommendations
The Chief Technology Officer should:
Recommendation 1: Ensure that the CORs provide the CO notification to timely process a
contract modification, if appropriate, when information technology assets are retired or removed
from service, or changes to performance requirements are made. Additionally, the CORs should
make any necessary adjustments with respect to receipt and acceptance.
        Management’s Response: The IRS agreed with our recommendation. The IRS will
        communicate and emphasize expectations with IT organizations so that managers can
        take appropriate action to ensure that hardware maintenance contracts are administered
        and acquisition duties are performed in accordance with existing IRS policy.
Recommendation 2: Ensure that the CORs work closely with the TPOCs to periodically
reconcile assets associated with hardware maintenance contracts to the vendor’s independent
records and provide necessary updates about the assets to User and Network Services Asset
Management personnel.
        Management’s Response: The IRS agreed with our recommendation. The IRS will
        communicate and emphasize expectations with IT organizations so that managers can
        take appropriate action to ensure that acquisition staff effectively coordinate in

4
  TIGTA, Ref. No. 2012-10-075, An Independent Risk Assessment of Facility Physical Security Was Not Performed
in Compliance With Contract Requirements (Jul. 2012).
                                                                                                      Page 6
                     Increased Oversight of Information Technology Hardware
                      Maintenance Contracts Is Necessary to Ensure Against
                                Paying for Unnecessary Services



        reconciling and providing updates about assets associated with hardware maintenance
        contracts in accordance with existing IRS policy.

Asset Data for Selected Maintenance Contracts Were Inaccurate and
Incomplete
A recent TIGTA review5 of the IRS IT organization’s asset inventory system identified several
deficiencies in the internal controls designed to ensure accurate and complete inventory records.
We also identified incomplete or inaccurate asset data in three of the seven information
technology hardware maintenance contracts reviewed.
       In two contracts reviewed, the IRS purchased a total of 25 information technology assets
        and upgraded the maintenance coverage for these assets. However, none of the 25 assets
        were recorded in the information technology asset inventory management system.
        Subsequent to our bringing this to the attention of the acquisition teams, documentation
        was provided to illustrate that the information technology assets were added in the
        inventory system. All IRS owned or leased information technology equipment must be
        added into the inventory system and updates to asset data must be completed within
        10 days.
       In another contract reviewed, we compared the asset listing to the information technology
        asset inventory system and identified four retired assets. The IRS provided the disposal
        documentation for these four retired assets showing that these assets were “written off”
        because they could not be located during the inventory. However, as a result of our
        subsequent inquiries, the IRS confirmed that the assets existed and took steps to correct
        the information technology asset inventory management system by placing the assets into
        an “in use” status.
These data discrepancies occurred because the internal controls for proper asset management
need to be strengthened and due to a lack of available resources to monitor and oversee the
inventory. The discrepancies identified in this review further underscore the need to periodically
reconcile the assets associated with hardware maintenance and ensure that the IRS accounts for
all of its assets and only pays for maintenance coverage on those assets that are still in service.
Further, it is equally important that the various users of the information technology asset
inventory management system data have confidence in and can rely on the data maintained
within the system. TIGTA’s current review6 provided the IRS with several recommendations for
improving internal controls and overall reliability of the data.


5
  TIGTA, Ref. No. 2013-20-089, Weaknesses in Asset Management Controls Leave Information Technology Assets
Vulnerable to Loss (Sept. 2013).
6
  TIGTA, Ref. No. 2013-20-089, Weaknesses in Asset Management Controls Leave Information Technology Assets
Vulnerable to Loss, pp. 7, 11, and 15 (Sept. 2013).
                                                                                                    Page 7
                          Increased Oversight of Information Technology Hardware
                           Maintenance Contracts Is Necessary to Ensure Against
                                     Paying for Unnecessary Services



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has adequate controls over
its hardware maintenance contracts and is actively mitigating contract fraud risk. To achieve our
objective, we:
I.         Determined whether IRS personnel have adequate controls in place to prevent payment
           for maintenance services for assets covered by warranty or that have been disposed.
           A. Identified the universe of 208 hardware maintenance contracts awarded during Fiscal
              Years 2009 through 2012. We judgmentally1 selected seven contracts to review
              based on the following monetary criteria: two contracts, each worth more than
              $5 million; two contracts worth between $700,000 and $4 million; and three contracts
              each worth less than $700,000. One of the contracts we reviewed was a closed
              contract. We used judgmental sampling because we did not intend to project our
              results to the contract universe. Further, the scope of our review was limited due to
              an ongoing TIGTA investigation.
           B. Reviewed all contract documentation such as the Statement of Work2 (also called a
              Performance Work Statement), invoices, modification, and asset listing of each
              sampled contract to identify the contractor’s requirements for providing maintenance.
           C. Compared a copy of the asset listing associated with the maintenance contract with
              the data recorded in the asset inventory system to obtain the current status of the
              assets. In order to assess the reliability of the inventory data, data were reviewed for
              reasonableness. We reviewed the assets associated with our selected contracts to
              verify their accuracy in the inventory system and identified several with incorrect
              statuses. However, we found the data to be reliable for the limited purposes of this
              audit and performed no other validity tests.
           D. For the sampled contracts, we interviewed the CO, COR, and TPOC to determine
              their roles and responsibilities in providing oversight for the selected contracts and
              their awareness of fraud.
II.        Assessed actions taken by the IT organization to enhance vendor, contract, and asset
           management activities.



1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
2
    See Appendix IV for a glossary of terms.
                                                                                                                Page 8
                   Increased Oversight of Information Technology Hardware
                    Maintenance Contracts Is Necessary to Ensure Against
                              Paying for Unnecessary Services



III.   Interviewed individuals involved with overseeing maintenance contracts to determine
       their awareness in detecting and reporting potential fraud.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Federal Acquisition Regulations, IRS
procurement policies and procedures, and the User and Network Services organization’s policies
and procedures relating to information technology asset management. We evaluated these
controls by interviewing acquisition team members and User and Network Services organization
personnel and reviewing relevant contract documentation.




                                                                                          Page 9
                   Increased Oversight of Information Technology Hardware
                    Maintenance Contracts Is Necessary to Ensure Against
                              Paying for Unnecessary Services



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
Diana Tengesdal, Audit Manager
Anthony Morrison, Program Analyst
Sarah Shelton, Program Analyst
Linda Nethery, Information Technology Specialist




                                                                                     Page 10
                 Increased Oversight of Information Technology Hardware
                  Maintenance Contracts Is Necessary to Ensure Against
                            Paying for Unnecessary Services



                                                                            Appendix III

                        Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Chief, Agency-Wide Shared Services OS:A
Associate Chief Information Officer, User and Network Services OS:CTO:UNS
Director, Procurement OS:A:P
Director, Vendor Contract Management OS:CTO:SP:VCM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                  Page 11
                    Increased Oversight of Information Technology Hardware
                     Maintenance Contracts Is Necessary to Ensure Against
                               Paying for Unnecessary Services



                                                                                 Appendix IV

                                Glossary of Terms

Term                             Definition
24/7                             The contractor maintains a helpdesk function staffed 24 hours
                                 a day, seven days a week to communicate with the IRS on
                                 critical errors.
Delivery Order                   An order for supplies placed against an established contract or
                                 with Government sources.
Development, Integration, and    Provides a standardized modernized development, integration,
Test Environment                 and test environment and the associated tools and processes
                                 needed to ensure the successful production deployment of IRS
                                 modernization projects.
Invoice                          A contractor’s bill or written request for payment under the
                                 contract for supplies delivered or services performed.
Modification                     Any formal change to the terms and conditions of a contract,
                                 delivery order, or task order, either within or outside the scope
                                 of the original agreement.
Option                           A unilateral right in a contract by which, for a specified time,
                                 the Government may elect to purchase additional supplies or
                                 services called for by the contract, or may elect to extend the
                                 term of the contract.
Receipt and Acceptance           The point at which the Government accepts ownership of
                                 specifically identified supplies or approves the performance of
                                 specific services.
Statement of Work                Documents the work to be performed by the contractor, the
                                 period of performance, performance standards, and special
                                 requirements.
Switch                           A small hardware device that joins multiple computers
                                 together with one local area network.
Task Order                       An order for services placed against an established contract or
                                 with Government sources.


                                                                                          Page 12
     Increased Oversight of Information Technology Hardware
      Maintenance Contracts Is Necessary to Ensure Against
                Paying for Unnecessary Services



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 13
Increased Oversight of Information Technology Hardware
 Maintenance Contracts Is Necessary to Ensure Against
           Paying for Unnecessary Services




                                                    Page 14
